2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

C@OCKLE

E-Mail Address:

Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com
No. 19-708
GOLD VALUE INTERNATIONAL TEXTILE, INC.,
D/B/A FIESTA FABRIC,
Petitioner,

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the AMICUS CURIAE BRIEF FOR AMERICAN SOCIETY OF
MEDIA PHOTOGRAPHERS, INC., CALIFORNIA SOCIETY OF ENTERTAINMENT LAWYERS, AMERICAN
PHOTOGRAPHIC ARTISTS, AND ASSOCIATION OF REAL ESTATE PHOTOGRAPHERS, JOINED BY NATIONAL

v.
SANCTUARY CLOTHING, LLC, ET AL.,

Respondents.

AFFIDAVIT OF SERVICE

PRESS PHOTOGRAPHERS ASSOCIATION AND GRAPHIC ARTIST’S GUILD IN SUPPORT OF PETITIONER in the

above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to

the following:

To be filed for:

THOMAS MADDREY
Counsel of Record

MADDREY PLLC

901 Main St., Suite 6530

Dallas, Texas 75202

Tel: 214-702-9862

tbm@maddreypllc.com

Counsel for Amicus
American Society of
Media Photographers, Inc.

STEVEN T. LOWE
LOWE & ASSOCIATES, P.C.
8383 Wilshire Blvd., Suite 1038
Beverly Hills, California 90211
Tel: 310-477-5811
Counsel for Amicus
California Society of
Entertainment Lawyers

SEE ATTACHED

DARREN J. QUINN
LAW OFFICES OF
DARREN J. QUINN
12702 Via Cortina,
Suite 105
Del Mar, California 92014
Tel: 858-509-9401

JOEL B. ROTHMAN

SRIPLAW, P.A.

21301 Powerline Rd.,
Suite 100

Boca Raton, Florida 33433

Counsel for Amici
American Photographic
Artists and Association
of Real Estate
Photographers

Subscribed and sworn to before me this 3rd day of January, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39276
SERVICE LIST

Scott Alan Burroughs
Trevor W. Barrett

Frank Gregory Casella
DONIGER I BURROUGHS
603 Rose Avenue

Venice, CA 90291

(310) 590-1820
scott@donigerlawfirm.com

Counsel for Petitioner

Jessica Strom Rutherford
Alexander Malbin
FERDINAND IP, LLC

450 7th Avenue, Suite 1300
New York, NY 10123
(212) 220-0523
jrutherford@24iplg.com
amalbin@24iplg.com

Counsel for Respondents
